Department of Health and Human Services

              OFFICE OF 

         INSPECTOR GENERAL 





NURSING FACILITY ASSESSMENTS 

AND CARE PLANS FOR RESIDENTS 

     RECEIVING ATYPICAL 

    ANTIPSYCHOTIC DRUGS 





                    Daniel R. Levinson

                     Inspector General


                       July 2012 

                     OEI-07-08-00151 

EXECUTIVE SUMMARY: NURSING FACILITY ASSESSMENTS AND CARE
PLANS FOR RESIDENTS RECEIVING ATYPICAL ANTIPSYCHOTIC DRUGS
OEI-07-08-00151

WHY WE DID THIS STUDY

Nursing facilities must meet Federal quality and safety standards to participate in the
Medicare and/or Medicaid programs. The standards require extra protections for nursing
facility residents receiving antipsychotic drugs. Nursing facility staff are required to
assess each resident’s functional capacity upon admission to the facility and periodically
thereafter. Staff must specify in a written care plan, based on these assessments, the
services that each resident needs. The Centers for Medicare & Medicaid Services (CMS)
contracts with State agencies to ensure that nursing facilities comply with the standards
for resident assessments and care plans.

HOW WE DID THIS STUDY

This study used a random sample of records from a previous Office of Inspector General
(OIG) study of elderly nursing facility residents with Medicare claims for atypical
antipsychotic drugs between January and June 2007 (OEI-07-08-00150). We reviewed
the records for evidence of compliance with Federal requirements for resident
assessments and documentation of decisionmaking. We also reviewed the records for
evidence of compliance with Federal requirements for care plan development and
implementation.

WHAT WE FOUND

Nearly all records reviewed (99 percent) failed to meet one or more Federal requirements
for resident assessments and/or care plans. The resident assessment and care plan process
involves four steps. One-third of records reviewed did not contain evidence of
compliance with Federal requirements regarding resident assessments, the first step.
Further, for 4 percent of records, nursing facility staff did not document consideration of
the Resident Assessment Protocol for psychotropic drug use as required, the second step.
Ninety-nine percent of records did not contain evidence of compliance with Federal
requirements for care plan development, the third step. Finally, 18 percent of records
reviewed did not contain evidence to indicate that planned interventions for antipsychotic
drug use—the fourth step—actually occurred.

WHAT WE RECOMMEND

We recommend that CMS: (1) improve the detection of noncompliance with Federal
requirements for resident assessments and care plans for residents receiving antipsychotic
drugs, (2) take appropriate action to address noncompliance with these requirements, and
(3) provide methods for nursing facilities to enhance the development and usefulness of
resident assessments and care plans. CMS concurred with all of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Finding .......................................................................................................12 

           Nearly all records reviewed failed to meet one or more Federal
           requirements for resident assessments and/or care plans ...............12 

Conclusion and Recommendations ............................................................17 

Agency Comments and Office of Inspector General Response.................19 

Appendixes ................................................................................................20 

           A: Changes to the Minimum Data Set, Version 3.0, That May 

           Affect the Assessment of Residents Receiving Antipsychotic 

           Drugs..............................................................................................20 

           B: Triggers for the Resident Assessment Protocol for Psychotropic 

           Drug Use ........................................................................................21 

           C: Example of How a Resident Assessment Is Used To Develop a 

           Care Plan Intervention for Antipsychotic Drug Use ......................22 

           D: State Certification of Nursing Facilities ..................................23 

           E: Sample Selection ......................................................................26 

           F: Professionals Involved in Resident Assessments 

           and Care Plans................................................................................27 

           G: Agency Comments ...................................................................28 

Acknowledgments......................................................................................31 

                   OBJECTIVE
                   To determine the extent to which nursing facilities follow Federal
                   assessment and care plan requirements designed to ensure quality of care
                   for elderly residents receiving atypical antipsychotic drugs.

                   BACKGROUND
                   Elderly nursing facility residents (residents) receiving atypical
                   antipsychotic drugs are a particularly vulnerable population because of an
                   increased risk of death associated with these drugs.1, 2 A previous Office
                   of Inspector General (OIG) study found that when this population received
                   these drugs, about half of the drugs were not given for medically accepted
                   indications as required for Medicare coverage3 and one-fifth of the drugs
                   were not given in accordance with Federal safeguards to protect nursing
                   facility residents from unnecessary antipsychotic drug use.4 This study
                   uses records collected for the previous study to assess the quality of the
                   care provided by nursing facilities to residents receiving atypical
                   antipsychotic drugs.
                   Nursing facilities must meet Federal quality and safety standards to
                   participate in the Medicare and/or Medicaid programs.5 To ensure quality
                   of care for residents, the regulations require that nursing facilities provide
                   residents with the services they need to achieve the highest practicable
                   level of well-being.6 To identify these services, nursing facility staff must
                   assess each resident’s functional capacity upon admission to the facility
                   and periodically thereafter.7 Staff must then specify in a written care plan,
                   based on these assessments, the services that each resident needs.8


                   1
                    Antipsychotic drugs were developed to treat psychoses and/or mood disorders. Atypical antipsychotic drugs
                   are second-generation antipsychotic drugs.

                   2
                    Food and Drug Administration (FDA), Public Health Advisory: Deaths With Antipsychotics in Elderly 

                   Patients With Behavioral Disturbances, April 2005. Accessed at http://www.fda.gov on February 22, 2008.

                   3
                     Medically accepted indications include both the uses approved by FDA and those uses supported by statutorily 

                   named compendia. Social Security Act § 1927(g)(1)(B)(i), 42 U.S.C. 1396r-8(g)(1)(B)(i). Medically accepted 

                   indications for atypical antipsychotic drugs generally include mental health conditions, such as bipolar disorder,

                   schizophrenia, depression, and psychotic features.

                   4
                    Medicare Atypical Antipsychotic Drug Claims for Elderly Nursing Home Residents (OEI-07-08-00150),
                   May 2011.
                   5
                     We use the term “nursing facilities” to refer to both skilled nursing facilities and nursing facilities. The former
                   operate under Medicare and the latter under Medicaid; however, both must comply with nearly all of the same
                   requirements. Requirements for the provision of nursing facility services are contained in Social Security Act
                   §§ 1819 and 1919. Federal regulations at 42 CFR pt. 483 and the Centers for Medicare & Medicaid Services
                   (CMS) State Operations Manual (SOM), Pub. No. 100-07, provide further interpretation.
                   6
                       42 CFR § 483.25.
                   7
                       42 CFR § 483.20(b).
                   8
                       42 CFR § 483.20(k).


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                    1
                   CMS contracts with State agencies to survey nursing facilities and certify
                   those that comply with Federal standards.9
                   Protection for Residents Receiving Antipsychotic Drugs
                   In addition to providing information about the services that residents need,
                   periodic assessments protect residents from receiving services that they do
                   not need. For residents receiving antipsychotic drugs, nursing facilities
                   must ensure, on the basis of comprehensive resident assessments, that:
                   	 residents who have not previously taken antipsychotic drugs are not
                      given them unless it is necessary to treat a specific condition as
                      diagnosed and documented in the residents’ clinical records and
                   	 when antipsychotic drugs are given, residents must receive gradual
                      dose reductions and behavioral interventions in an effort to discontinue
                      the drugs’ use, unless clinically contraindicated.10
                   Resident Assessments and Care Plans
                   Resident assessments and care plans are critical in providing care.
                   Graphic 1, the “Quality of Care Pathway,” illustrates the importance of
                   each of the four phases involved in providing care. The activities along
                   the pathway can be regarded as a proxy measure for the quality of care
                   provided to nursing facility residents.
                   Graphic 1: Quality of Care Pathway


                                                  1. Assessment




                          4. Care Plan
                                                                  2. Decisionmaking
                        Implementation




                                                  3. Care Plan
                                                  Development



                   Source: Adapted from CMS, Long-Term Care Facility Resident Assessment Instrument (RAI) User’s
                   Manual, version 2.0, December 2002.




                   9
                       42 CFR § 488.10.

                   10
                        42 CFR § 483.25(l)(2).



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   2
                   Phase One: Assessment. Federal regulations require nursing facility staff
                   to conduct a comprehensive assessment at the following times: upon
                   resident admission, whenever there has been a significant change in the
                   resident’s physical or mental condition, and at least once per year.11 The
                   initial comprehensive assessments provide baseline information for use in
                   the ongoing assessment of residents’ progress.12
                   To ensure that residents are accurately assessed, a qualified health
                   professional correctly documents each resident’s medical, functional, and
                   psychosocial issues.13 The resident’s condition determines the appropriate
                   level of involvement of physicians; nurses; rehabilitation therapists;
                   activities professionals; medical social workers; dietitians; and other
                   professionals, such as developmental disabilities specialists.14 For
                   example, a resident receiving atypical antipsychotic drugs for a mental
                   health condition should be assessed by a mental health professional who is
                   qualified in this specific care area.
                   A registered nurse (RN) is required to conduct or coordinate each
                   assessment with the participation of other health professionals.15 In
                   addition, an RN is required to certify that resident assessments are
                   completed.16
                   The Resident Assessment Instrument (RAI) is the tool that nursing
                   facilities must use for preliminary screening to identify potential resident
                   problems, strengths, and preferences.17 It must contain standardized core
                   items, called the Minimum Data Set (MDS).18 On October 1, 2010, CMS
                   implemented a new version of the MDS—version 3.0—to improve the
                   MDS’s reliability, accuracy, and usefulness; to include the resident in the
                   assessment process; and to use standard protocols used in other settings.19
                   See Appendix A for information about changes in MDS 3.0 that may affect
                   assessments of residents receiving antipsychotic drugs.


                   11
                      42 CFR § 483.20(b)(2). A significant change is a major improvement or decline in the resident's status that 

                   will not normally resolve itself without further intervention by staff or by implementing standard disease-related

                   clinical interventions; that has an impact on the resident’s health status; and that requires interdisciplinary 

                   review, revision of the care plan, or both.

                   12
                        CMS, SOM, Pub. No. 100-07, Appendix PP, interpretive guidelines of 42 CFR § 483.20(g).

                   13
                        Ibid. 

                   14
                        CMS, SOM, Pub. No. 100-07, Appendix PP, interpretive guidelines of 42 CFR § 483.20(h).

                   15
                     42 CFR § 483.20(h). CMS, SOM, Pub. No. 100-07, Appendix PP, interpretive guidelines of 

                   42 CFR § 483.20(h).

                   16
                        42 CFR § 483.20(i). 

                   17
                        42 CFR § 483.20(b)(1).

                   18
                        42 CFR § 483.20(b)(1)(xvii).

                   19
                     CMS, MDS 3.0 for Nursing Homes and Swing Bed Providers. Accessed at https://www.cms.gov on 

                   September 30, 2011.


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                 3
                   In addition to performing comprehensive assessments, nursing facilities
                   are required to perform quarterly assessments for each resident at least
                   once every 3 months.20 These quarterly assessments are designed to
                   ensure that residents’ needs are periodically assessed and that their care
                   plans are updated to reflect any identified changes in needs. Each State’s
                   quarterly assessment instrument must contain certain mandatory MDS
                   items.21
                   The MDS provides a standard format for Federal documentation
                   requirements and allows nursing facilities to summarize the information in
                   residents’ records.22 Relevant details that are not part of MDS should be
                   documented by nursing facilities elsewhere in resident records, using
                   additional tools for assessment as necessary.23 The information in nursing
                   facility records should support, rather than conflict with, MDS data
                   reported to CMS.24
                   Phase Two: Decisionmaking. Certain combinations of responses to MDS
                   items alert nursing facility staff to potential resident problems, known as
                   “triggered conditions.” These triggered conditions guide nursing facility
                   staff to conduct an additional assessment(s) through Resident Assessment
                   Protocols (RAP). Nursing facility staff use RAPs and other clinically
                   relevant assessments to determine whether a triggered condition represents
                   an actual problem for the resident that needs to be addressed in the care
                   plan. Using the assessment information, staff must document in care plans
                   their decisions about whether to proceed with interventions to address
                   triggered conditions.25
                   For residents who receive atypical antipsychotic and other psychotropic
                   drugs,26 the coding of certain items on the MDS should “trigger” the RAP
                   for psychotropic drug use.27 For example, if a resident taking an atypical

                   20
                     42 CFR § 483.20(c). A minimum of three quarterly assessments are required for each 12-month period, as
                   there are a maximum of 92 days in any 3-month interval.

                   21
                     CMS, SOM, Pub. No. 100-07, Appendix PP, 42 CFR § 483.20(c) interpretive guidelines; and CMS,

                   Long-Term Care Facility RAI User’s Manual, version 2.0, December 2002.

                   22
                     CMS, Long-Term Care Facility RAI User’s Manual, version 2.0, December 2002, pp. 1-23. This version of 

                   the manual was revised in December 2008; however, we used the 2002 version, as our review period involves 

                   nursing facility records from 2007. RAPs were termed “Care Area Assessments” (CAA) in the MDS 

                   version 3.0, released in October 2010.

                   23
                        Ibid. 

                   24
                        Ibid. 

                   25
                        CMS, SOM, Pub. No. 100-07, Appendix PP, 42 CFR § 483.20(k) interpretive guidelines.

                   26
                    Psychotropic drugs include antipsychotic, antidepressant, and antianxiety medications for the purposes of 

                   MDS 2.0. 

                   27
                     Appendix B contains the list of triggers for the Psychotropic Drug Use RAP at the time our data were

                   collected. MDS 3.0, released in October 2010, requires only that a resident received psychotropic drugs prior to 

                   the assessment in order to trigger the Psychotropic Drug Use CAA. CMS, Long-Term Care Facility RAI User’s 

                   Manual, version 3.0, September 2010, pp. 4-37.



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                4
                   antipsychotic drug experiences periods of lethargy according to MDS, that
                   observed state should trigger the RAP for psychotropic drug use.28
                   Facility staff should then use the RAP to collect additional information
                   about the resident’s status to determine whether the lethargy represents a
                   problem related to antipsychotic drug use that should be addressed in the
                   resident’s care plan.
                   Phase Three: Care Plan Development. Nursing facilities are required to
                   develop a care plan for each resident within 7 days after the completion of
                   the comprehensive assessment and to review it after all subsequent
                   (comprehensive and quarterly) resident assessments.29 Care plans should
                   describe the services that the nursing facility will provide to residents to
                   assist them in attaining or maintaining the highest practicable functional
                   status.30 Care plans include measurable objectives and timeframes to meet
                   residents’ physical, mental, and psychosocial needs.31
                   Interdisciplinary teams composed of the attending physician, the RN
                   overseeing the resident’s care, and “other appropriate staff in disciplines as
                   determined by the resident’s needs” must prepare a care plan for each
                   resident.32 Care plan development also requires participation, to the extent
                   practicable, of the resident or the resident’s family or legal
                   representative.33 Appendix C provides an example of how a resident
                   assessment is used to help develop a care plan intervention for
                   antipsychotic drug use.
                   Phase Four: Care Plan Implementation. In general, care plans list several
                   physical, medical, and psychosocial objectives based on resident strengths
                   or problems; interventions to address risks related to those objectives; and
                   periodic evaluations of progress towards the goal. Figure 1 shows an
                   example of what might be included in a care plan to address risks
                   associated with antipsychotic drug use.




                   28
                     Appendix B indicates signs, symptoms, and conditions for using the RAP for psychotropic drug use. CMS,

                   Long-Term Care Facility RAI User’s Manual, version 2.0, December 2002, pp. C-87.

                   29
                        42 CFR § 483.20(k)(2).

                   30
                        42 CFR § 483.20(k)(1).

                   31
                        Ibid. 

                   32
                        Ibid. 

                   33
                     42 CFR § 483.10(d)(3), 42 CFR § 483.20(k)(2)(ii), and interpretive guidelines at CMS, SOM,

                   Pub. No. 100-07, Appendix PP. The facilities are responsible for assisting residents and/or their representatives 

                   with participation in care plans.



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                 5
Figure 1. Care Plan Example

Problem/Objective                           Intervention                                Evaluation

Resident is at risk for                      Attempt gradual dose reduction  Dose reduction occurred 2 months ago
side effects of                               of antipsychotic drug at least       and was well tolerated.
antipsychotic drug use.                       once per quarter.                   Resident experienced lethargy only 2 of
Goal: Reduce risk of                         Monitor resident for side effects,   the last 30 days.
side effects.                                 especially lethargy.                Action: Continue interventions as stated.

Source: OIG analysis of nursing facility records, 2011.


                             Federal regulations require that nursing facilities provide necessary care
                             and services to each resident in accordance with the resident’s
                             comprehensive assessment and care plan.34 To achieve this, the facility
                             staff must continually implement and update the care plan.35 Interpretive
                             guidelines state that nursing facilities must ensure that each resident
                             “obtains optimal improvement or does not deteriorate” within the limits of
                             the normal aging process.36 That is, care plans can be used to correct
                             physical or emotional problems, if possible, or ensure that a resident does
                             not experience an avoidable decline in health. Nursing facility staff
                             reevaluate the resident’s status using the RAI and then modify the care
                             plan as necessary.37

                             State Certification Process
                             To participate in Medicare and Medicaid, nursing facilities must be
                             certified.38 States certify nursing facilities through a process that
                             determines compliance with Federal standards, including standards for
                             resident assessments and care plans.39 In this process, State surveyors
                             identify deficiencies and score them using severity and scope. The
                             deficiencies identified on State surveys have implications for nursing
                             facilities’ participation in Medicare.40 To rate the quality of each nursing
                             facility on its publicly available Nursing Home Compare Web site CMS
                             uses health inspection ratings from State surveys, nursing facility staffing
                             information, and quality measures from MDS.41 Consumers can compare


                             34
                                  42 CFR § 483.25 and § 483.20(k)(3)(ii). 

                             35
                                  CMS, SOM, Pub. No. 100-07, Appendix PP, interpretive guidelines for 42 CFR § 483.25.

                             36
                                  Ibid. 

                             37
                                  CMS, Long-Term Care Facility RAI User’s Manual, version 2.0, December 2002, pp. 4-27.

                             38
                               Requirements for the provision of nursing facility services are contained in Social Security Act §§ 1819 

                             and 1919. Federal regulations at 42 CFR § 483 and the CMS SOM, Pub. No. 100-07, provide further

                             interpretation.

                             39
                                  CMS, SOM, Pub. No. 100-07, ch. 1 § 1016—Approval and Correction of Deficiencies. 

                             40
                                  42 CFR § 488.330

                             41
                                  CMS, “Five-Star Quality Rating System.” Accessed at https://www.cms.gov on December 22, 2011.



      Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                    6
                   these quality ratings to evaluate how nursing facilities may differ from one
                   another.42
                   When identifying deficiencies, State surveyors determine the accuracy of
                   residents’ comprehensive (MDS) assessments and the adequacy of care
                   plans using those assessments. However, no guidance explains
                   specifically how deficiencies in resident assessments and care plans should
                   be scored. See Appendix D for more information about the State
                   certification process for nursing facilities.

                   Previous Office of Inspector General Reports
                   Previous OIG studies used medical review to examine the accuracy of the
                   MDS in resident assessments and care plans at skilled nursing facilities.43
                   Medical reviewers identified inconsistencies between responses in MDS
                   and documentation in residents’ medical records. For example, medical
                   reviewers identified documentation in nursing facility records representing
                   triggered conditions; however, staff did not indicate in the MDS that these
                   conditions were present. Thus, MDS did not “trigger” RAPs and staff did
                   not consider triggered conditions in care plans.
                   Additional OIG work has focused on the timeliness of resident
                   assessments and submission of required MDS data.44 OIG found that
                   nursing facilities generally performed resident assessments and submitted
                   MDS data within required timeframes, but did not always code MDS data
                   accurately. In contrast to previous OIG reports, this report does not
                   examine the accuracy of MDS data.

                   METHODOLOGY
                   We selected a random sample of nursing facility records for elderly
                   residents receiving atypical antipsychotic drugs. We reviewed the records
                   for evidence of compliance with Federal requirements for resident
                   assessments and care plans.
                   Data Collection
                   Scope. This study used a sample of records from a previous OIG study of
                   elderly nursing facility residents with Medicare claims for atypical
                   antipsychotic drugs during the first 6 months of 2007.45 During the


                   42
                      CMS, “Understanding Nursing Home Quality Measures.” Accessed at http://www.medicare.gov on
                   December 22, 2011.

                   43
                      Nursing Home Resident Assessment Quality of Care (OEI-02-99-00040), January 2001; Supplemental Data 

                   on the Minimum Data Set (OEI-02-02-00831), August 2005; and Questionable Billing by Skilled Nursing 

                   Facilities (OEI-02-09-00202), December 2010.

                   44
                        Facility Performance in Assessing Residents and Submitting MDS Records (OEI-06-02-00730), April 2005.

                   45
                        Medicare Claims for Atypical Antipsychotic Drugs in Nursing Homes (OEI-07-08-00150), May 2011.



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)               7
                   previous study, geriatric psychiatrists reviewed these residents’ records to
                   determine facility compliance with Medicare requirements for
                   administering atypical antipsychotic drugs. Because all previously
                   sampled residents had Medicare claims for atypical antipsychotic drugs,
                   this study used those residents’ records to focus on nursing facility use of
                   the RAP for psychotropic drug use during resident assessments and care
                   plans.
                   Sample Selection. For this study, we reviewed 375 records randomly
                   selected from the 640 nursing facility records collected for the previous
                   study. During the previous study, we requested nursing facility records
                   corresponding to a sample of 700 Medicare claims (from a universe of
                   1,678,874 claims) for atypical antipsychotic drugs for elderly residents
                   from January 1 through June 30, 2007 (our review period).46 These
                   prescription drug claims from the previous study were associated with
                   304,983 elderly nursing facility residents, representing 14 percent of the
                   total elderly nursing facility population during the review period.47
                   We did not project our results for this study to the universe of residents
                   from the previous study because the basis for sampling for the previous
                   study was claims rather than residents. We also did not project our results
                   for this study to the original universe of claims corresponding to the
                   nursing facility records, as the nursing facility regulatory requirements that
                   we reviewed in this study are not applicable to prescription drug claims.
                   Record Review. We used the Medicare beneficiary nursing facility records
                   for the 6 months before and after the date of the sampled Medicare claims,
                   which were collected for the previous study. We developed a data
                   collection instrument to determine the extent to which nursing facilities
                   met Federal requirements for resident assessments and for care plans,
                   according to documentation in the nursing facility records. We reviewed
                   the records for comprehensive assessments, quarterly assessments, and
                   care plans. We determined whether the records indicated that nursing
                   facility staff complied with Federal requirements for (1) resident
                   assessments, (2) decisionmaking, (3) care plan development, and (4) care
                   plan implementation.
                   Resident Assessments. We determined whether the requisite number of
                   comprehensive and quarterly assessments were present in the record. We
                   adjusted our analysis, when applicable, according to residents’ dates of

                   46
                     See Appendix E for detailed information about how the sampling methodology for the previous study affects
                   this study. 

                   47
                     The previous study excluded payments for atypical antipsychotic drugs provided under the Medicare Part A 

                   Prospective Payment System for short-term stays in skilled nursing facilities because they are not individually 

                   quantifiable on the basis of claims data. 



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                 8
                   death during our review period. For example, if a resident’s date of death
                   occurred 4 months before the end of our 12-month review period, we did
                   not expect to see at least one comprehensive assessment and all three
                   quarterly assessments in the record, nor did we consider those records to
                   be noncompliant. Similarly, if a resident was admitted to the nursing
                   facility in the middle of our review period, we adjusted our analysis of
                   timeliness accordingly.
                   We also reviewed assessments for staff involvement. We noted the
                   credentials of staff listed as participants in completing comprehensive and
                   quarterly assessments. When the MDS had a location for an RN to sign
                   indicating RN coordination of the comprehensive assessment or of the
                   RAP assessment process, we assumed the signatures to be those of RNs
                   even if the individual signing the form did not list his or her credentials. If
                   the signature was missing from the relevant assessment section or the
                   relevant assessment section was missing entirely, we considered the record
                   noncompliant.
                   Decisionmaking. We reviewed comprehensive assessments to determine
                   whether the nursing facility staff documented their care plan decisions
                   when the RAP for psychotropic drug use was triggered. For example, if
                   this RAP was triggered because a resident taking an atypical antipsychotic
                   drug experienced an unsteady gait, we reviewed the RAP summary to
                   determine whether nursing facility staff (1) attributed the unsteady gait to
                   antipsychotic drug use or another cause and (2) determined whether the
                   unsteady gait represented a problem for the resident that needed to be
                   addressed in the care plan. When staff documented a decision, we noted
                   the facility’s intention to proceed (or not to proceed) with inclusion of an
                   intervention in the care plans.
                   Care Plan Development. We reviewed care plans for timeliness
                   (i.e., developed within 7 days of each comprehensive assessment) and
                   evidence that they were developed by an interdisciplinary team composed
                   of at least a physician and an RN and that the resident or the resident’s
                   family or legal representative was involved. We noted the credentials of
                   staff listed as participants in developing the care plan, including mental
                   health professionals, such as psychologists or psychiatric or geriatric
                   specialty-trained physicians. When involvement of the resident or the
                   resident’s family or legal representative was not documented within the
                   care plan, we reviewed care plan information, intake forms, social work
                   notes, and nursing notes to determine whether nursing facility staff
                   documented why their involvement was not practicable. For example, if
                   the intake form indicated that the resident was incompetent and the social
                   worker noted that he or she was not successful in contacting the resident’s
                   family or legal representative regarding a care plan update, we determined

Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   9
                   that the involvement of the resident or the resident’s family or legal
                   representative was not practicable and that the nursing facility complied
                   with this requirement.
                   Care Plan Implementation. We reviewed mental health assessments,
                   medication administration records, and logs of behavior and drug side
                   effects to determine whether interventions occurred as stated in the care
                   plans. For example, if a care plan stated that the nursing facility would
                   monitor the resident for side effects, such as unsteady gait, and would
                   attempt gradual dose reductions, we reviewed the record for evidence of
                   those interventions. We reviewed care plans for evidence of interventions
                   to address psychotropic drug use regardless of whether the RAP for
                   psychotropic drug use was triggered and/or considered in the development
                   of the care plan. We also reviewed records for evidence of interventions to
                   address psychotropic drug use regardless of whether they were listed in the
                   care plans.
                   Data Analysis
                   Using SAS (a statistical analysis software package), we analyzed data
                   collected during our record review. We calculated the proportion of
                   sampled records that included evidence indicating that:
                   	 comprehensive and quarterly assessments were conducted during the
                      time intervals required and by qualified health professionals;
                   	 care plans included consideration of interventions for triggered RAPs;
                   	 care plans were created timely, were prepared by an interdisciplinary
                      team, and involved the resident or the resident’s family or legal
                      representative; and
                   	 care plans were implemented as described with respect to interventions
                      for antipsychotic drug use.
                   Given the nature of our study population, our review of the involvement of
                   health professionals in resident assessments and care plans focused on
                   those most qualified to assess complex mental health and medical
                   conditions, including physicians, psychologists, social workers, and RNs.
                   We did not review the involvement of other staff, such as activities
                   professionals, nutritionists, licensed practical nurses, or nurse’s aides.
                   Additionally, our review determined whether assessments were present in
                   records during the general time intervals required rather than the precise
                   timeliness of such items. For example, we determined how many
                   quarterly and annual assessments were present rather than whether each
                   quarterly assessment was performed exactly 92 days from the previous
                   assessment date. This method may have overestimated nursing facility


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   10
                   compliance with Federal requirements for timeliness of resident
                   assessments.
                   Limitations
                   Our analysis was limited by the information available in the nursing
                   facility records and interpretation of those records provided previously by
                   medical reviewers. Neither the medical reviewers nor the study team
                   members conducted in-person observations of the residents or interviews
                   with the residents, residents’ families or legal representatives, or clinical
                   staff to evaluate compliance with Federal requirements.
                   To determine compliance with the requirement that care plan development
                   include the resident, the resident’s family, or the resident’s legal
                   representative “to the extent practicable,” we reviewed whether attempts at
                   inclusion were documented. While no explicit requirement exists that a
                   nursing facility document its efforts to include the resident, family, or legal
                   representative, documentation was the most feasible way to assess
                   compliance with the requirement.
                   We did not determine whether comprehensive assessments were conducted
                   when a significant change in resident status occurred, because the medical
                   reviewers did not note those occurrences.48
                   We determined the extent to which the RAP for psychotropic drug use was
                   used to create care plans. However, we did not determine the medical
                   appropriateness of care plans or of the antipsychotic drugs prescribed for
                   residents.
                   Although the medical records we reviewed are from a period prior to
                   implementation of MDS 3.0, we are unaware of any MDS changes or
                   other changes in nursing facility practice that materially affect the findings
                   in this report.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   48
                        42 CFR § 483.20(b)(2).


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   11
                   FINDING
                   Nearly all records reviewed failed to meet one or more
                   Federal requirements for resident assessments and/or
                   care plans
                   Overall, 373 of the 375 records reviewed for elderly nursing facility
                   residents receiving atypical antipsychotic drugs during the first 6 months
                   of 2007 lacked evidence to indicate that they met all Federal
                   requirement(s) for nursing facility resident assessments and care plans.
                   The resident assessment and care plan process involves four steps.
                   One-third of records did not contain evidence of staff compliance with
                   Federal requirements regarding resident assessments, the first step. For
                   4 percent of records, nursing facility staff did not document consideration
                   of the RAP for psychotropic drug use as required, the second step.
                   Additionally, 99 percent of records did not contain evidence that Federal
                   requirements for care plans—the third step—were met. Finally,
                   18 percent of records that listed care plan interventions for antipsychotic
                   drug use did not contain evidence that those interventions—the fourth
                   step—actually occurred. Forty-eight percent of records did not meet two
                   or more Federal requirements, resulting in 205 overlapping errors.49
                   Table 1 summarizes records that did not meet Federal requirements for
                   resident assessments and care plans. Further details regarding each type of
                   requirement follow the table.
                   Table 1: Records That Did Not Contain Evidence That Federal
                   Requirements Were Met

                        Federal Requirements Not Documented                            Records         Percentage
                                                                                        (n=375)

                        Resident Assessments                                                125              33.3%

                        Decisionmaking
                                                                                              15              4.0%
                        (Consideration of RAP for psychotropic drug use)

                        Care Plan Development                                               371              98.9%

                        Care Plan Implementation                                              67             17.9%

                        Overlapping                                                        (205)           (54.6%)

                           Total (net)                                                      373              99.5%

                   Source: OIG analysis of nursing facility records, 2011.




                   49
                     Note that a single record may have multiple errors and thus the percentage overlap would be equal to or
                   greater than the percentage of records with overlapping errors.


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)             12
                   One-third of records reviewed did not contain evidence of
                   compliance with Federal requirements regarding resident
                   assessments
                   To meet Federal requirements,
                                                                            1. Assessment
                   nursing facility staff must conduct at
                   least one comprehensive resident and
                   three quarterly assessments per year.
                   Comprehensive assessments and RAP           4. Care Plan
                                                             Implementation
                                                                                          2. Decisionmaking

                   assessments must be coordinated by
                   an RN. Overall, 125 of 375 records
                   did not meet Federal requirements                         3. Care Plan
                                                                             Development
                   regarding resident assessments,
                   according to the documentation
                   provided. Nine percent of records did not meet more than one Federal
                   requirement for resident assessments, resulting in 34 overlapping errors.
                   Table 2 shows the number and percentage of records that did not comply
                   with Federal requirements for resident assessments.
                     Table 2: Records That Did Not Contain Evidence That 

                     Federal Requirements for Resident Assessments Were Met 


                     Federal Requirements Not Documented                                Records    Percentage
                                                                                         (n=375)

                     Lacked required quarterly assessments                                  106        28.3%

                     Lacked required comprehensive assessments                               43        11.5%

                     Comprehensive assessments not coordinated by RN                          0         0.0%

                     RAP assessments not coordinated by RN                                   10         2.7%

                     Overlapping                                                            (34)       (9.1%)

                        Total (net)                                                         125        33.3%

                     Source: OIG analysis of nursing facility resident records, 2011.


                   As listed in Table 2, 28 percent of records did not include required
                   quarterly assessments and 12 percent of records did not include required
                   comprehensive assessments. No records that contained the required
                   assessments lacked evidence of an RN’s coordination of comprehensive
                   assessments; however, 10 such records lacked evidence of an RN’s
                   coordination of the RAP assessment.
                   Although RN involvement in resident assessments was generally evident,
                   records contained little evidence of involvement by a professional who
                   was qualified in the relevant care area, such as a mental health
                   professional. Despite the fact that residents had mental health conditions


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   13
                   that needed to be assessed by qualified health professionals, no
                   psychiatrists or geriatricians were involved with resident assessments and
                   only one record contained evidence that a psychologist was involved. In
                   fact, 46 percent of records indicated that an RN was solely responsible for
                   conducting the resident assessment. See Appendix F for a listing of
                   professionals involved in the comprehensive resident assessments for this
                   population, illustrating the lack of involvement of mental health
                   professionals.
                   For 4 percent of records reviewed, nursing facility staff did not
                   document consideration of the RAP for psychotropic drug use
                   as required
                   Nursing facility staff must document
                                                                               1. Assessment
                   their decisionmaking regarding
                   whether triggered conditions for RAPs
                   require care plans. Nursing facility
                   staff did not document consideration          4. Care Plan
                                                                Implementation
                                                                                             2. Decisionmaking

                   of the RAP for psychotropic drug use
                   for 15 of the 375 records reviewed.
                   Additionally, of the 277 records that                        3. Care Plan
                                                                                Development
                   indicated that the staff intended to
                   develop care-plan interventions for
                   psychotropic drug use, 14 percent (39 of 277) did not contain evidence
                   that the staff actually did so. Of the 98 records that indicated that staff did
                   not intend to develop care-plan interventions for psychotropic drug use,
                   54 percent (53 of 98) contained evidence that the staff developed such
                   interventions, further illustrating a disconnection in the decisionmaking
                   process between resident assessments and care plans.
                   Ninety-nine percent of records reviewed did not contain
                   evidence of compliance with Federal requirements for care
                   plan development
                   To meet Federal requirements, a care
                                                                           1. Assessment
                   plan must (1) be developed within
                   7 days after the completion of a
                   comprehensive assessment, (2) be
                   prepared by an interdisciplinary team     4. Care Plan
                                                            Implementation
                                                                                         2. Decisionmaking

                   consisting of at least a physician and
                   an RN, and (3) include involvement
                   of the resident or the resident’s                        3. Care Plan
                                                                            Development
                   family or legal representative to the
                   extent practicable. Table 3 shows the
                   number and percentage of records that did not contain evidence of
                   compliance with Federal requirements for care plans. Sixty-six percent of

Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   14
                   records did not contain evidence for more than one Federal requirement
                   for care plans, resulting in 271 overlapping errors.
                        Table 3: Records That Did Not Contain Evidence That Federal
                        Requirements for Care Plan Development Were Met

                                                                                       Records
                         Federal Requirements Not Met                                                     Percentage
                                                                                        (n=375)
                                                                                                                           
                        No care plan documentation was provided                               23                 6.1%
                                                                                                                           
                        Care plans were not developed timely                                  35                 9.3%

                        Care plans did not include evidence of
                        resident/family/representative involvement or                        221                58.9%
                        documentation as to why it was impracticable                                                       
                        Care plans were not developed by
                                                                                             363                96.8%
                        interdisciplinary team (physician and RN)
                                                                                                                           
                        Overlapping                                                        (271)              (72.2%)

                           Total (net)                                                       371                98.9%

                   Source: OIG analysis of nursing facility resident records, 2011.


                   Six percent of records did not include care plans, and 9 percent of records
                   contained care plans that were not developed or updated within the
                   required 7 days from the completion of comprehensive assessments. Less
                   than 5 percent of records contained care plans developed by the required
                   interdisciplinary team of at least a general physician and an RN.
                   A psychiatrist, geriatrician, or psychologist should also be involved in
                   developing care plans, given that they are the appropriate, qualified
                   practitioners to assess the mental health conditions among our study
                   population. However, only two care plans involved such practitioners.
                   Moreover, 20 percent of records indicated that an RN, a social worker, or a
                   licensed practical nurse was solely responsible for developing the care
                   plan.50 Of the 12 records that involved a physician, 2 records indicated
                   that the physician signed the care plan but did not actually attend the care
                   plan development conference. See Appendix F for a listing of the
                   professionals that were involved in care plans for our study population,
                   showing the lack of mental health professionals.
                   Though the participation of the resident, family, or legal representative in
                   developing care plans is required only “to the extent practicable,” such
                   participation is important to ensure that residents receive quality care.
                   Overall, 91 percent of records did not contain evidence that the resident,
                   the resident’s family, or the resident’s legal representative participated in

                   50
                        These records are included in the measure of care plans not developed by an interdisciplinary team.


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)            15
                   the care plan process. Nearly two-thirds of those records, or 59 percent of
                   all records, also lacked documentation as to why such participation did not
                   occur (i.e., why participation was not practicable).
                   Eighteen percent of records reviewed did not contain evidence
                   to indicate that planned interventions for antipsychotic drug
                   use occurred
                   Nursing facilities must provide
                                                                               1. Assessment
                   necessary services to residents in
                   accordance with their written care
                   plans. Interventions for psychotropic
                   drug use listed in care plans included        4. Care Plan
                                                                Implementation
                                                                                             2. Decisionmaking

                   monitoring for side effects and
                   effectiveness of the drugs and
                   attempting gradual dose reductions.                          3. Care Plan
                                                                                Development
                   For 18 percent of records reviewed,
                   nursing facility staff listed such
                   interventions in residents’ care plans, but the records contained no
                   evidence that those interventions occurred. For example, one resident’s
                   care plan listed as an intervention a gradual dose reduction for the
                   antipsychotic drug within a certain quarter, but the record contained no
                   evidence in the medication log, pharmacist’s review, or elsewhere that a
                   dose reduction was attempted. Also, in several of these cases, the facilities
                   had forms—such as side-effect logs or behavioral logs—designed to
                   measure the intervention, but those forms were either blank or incomplete.
                   An additional 23 percent of records reviewed did not list any interventions
                   for psychotropic drug use. Overall, of the records we reviewed of elderly
                   nursing facility residents receiving atypical antipsychotic drugs,
                   41 percent contained no indications that the residents received relevant
                   interventions.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   16
                   CONCLUSION AND RECOMMENDATIONS
                   In striving to ensure quality of care for residents, nursing facilities must provide
                   residents with the services they need to achieve their highest practicable level of
                   well-being. Nursing facilities identify services through periodic assessments of
                   each resident’s functional capacity and specify these services in a written care
                   plan for each resident. Facility noncompliance with the requirements for
                   resident assessments and care plans may negatively affect the services that
                   residents receive, thereby placing their quality of care at risk.
                   Overall, 99.5 percent of records reviewed for elderly nursing facility residents
                   receiving atypical antipsychotic drugs did not contain evidence that all Federal
                   requirements for nursing facility resident assessments and care plans were met.
                   For one-third of records, nursing facility staff did not complete resident
                   assessments in accordance with Federal requirements. For 4 percent of records,
                   nursing facility staff did not document consideration of the RAP for
                   psychotropic drug use as required. Ninety-nine percent of records did not
                   contain evidence that care plans were developed in accordance with Federal
                   requirements. Finally, for 18 percent of records, records contained no evidence
                   that interventions for antipsychotic drug use listed in the care plans actually
                   occurred. Forty-eight percent of records did not meet more than one type of
                   requirement. The extent of the noncompliance identified suggests increased
                   risks for this already vulnerable population.
                   To ensure that nursing facilities take actions designed to provide high-quality
                   care to elderly residents in nursing facilities, we recommend that CMS:
                   Improve the detection of noncompliance with Federal requirements
                   for resident assessments and care plans
                   Although this study targeted residents receiving antipsychotic drugs, CMS
                   should aim to eliminate nursing facility deficiencies in resident assessments and
                   care plans for all residents. CMS should also consider modifying the survey
                   process to target a small subsample of residents receiving antipsychotic drugs,
                   focusing on the quality of care for these particularly vulnerable residents.
                   In addition, CMS should consider strengthening guidance in the SOM for issues
                   for which Federal regulations for resident assessment and care plans do not
                   explicitly require documentary evidence. For example, CMS could require that
                   nursing facilities document any efforts to include the participation of residents,
                   their families, or their legal representatives in the development of care plans.
                   Surveyors’ determination of compliance with requirements for care plan
                   development may be more expeditious and reliable if based on documentation
                   rather than on the recollection of residents, their families or legal
                   representatives, or nursing facility staff.



Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   17
                   Take appropriate action to address noncompliance with Federal
                   requirements for resident assessments and care plans
                   CMS should ensure that both the rate of detection and the sanctions for survey
                   deficiencies are significant enough to deter noncompliance. CMS could
                   accomplish this by clarifying in the SOM which deficiency determinations and
                   enforcement remedies are most appropriate for deficiencies in resident
                   assessments and care plans. For example, CMS could indicate whether
                   residents are placed in an “immediate jeopardy” status when interventions listed
                   in care plans are not provided.
                   To promote nursing facility compliance, CMS should also explore alternative
                   methods beyond the State survey and certification process. CMS could consider
                   incentive programs for nursing facilities and/or prescribing physicians for
                   providing high-quality resident assessment and care plan services. To bring
                   consumer awareness to this issue, CMS could also consider adding to the
                   publicly available Nursing Home Compare Web site one or more quality
                   measures reflecting deficiencies in resident assessment and care plans.
                   Provide methods for nursing facilities to enhance the development
                   and usefulness of resident assessments and care plans for
                   residents receiving antipsychotic drugs
                   CMS could accomplish this by:
                   	 forming a task force of qualified health professionals (e.g., geriatric
                      psychiatrists, psychologists, social workers) to recommend best practices for
                      resident assessments and care plans for nursing facility residents receiving
                      antipsychotic drugs;
                   	 exploring novel ways to ensure that nursing facilities have access to the
                      expertise of qualified mental health professionals (e.g., through remote
                      consultations or interactive informational Web sites) when assessing and
                      developing care plans for residents receiving antipsychotic drugs;
                   	 providing nursing facility staff with training on the importance of care plan
                      interventions, especially for residents receiving antipsychotic drugs; and
                   	 encouraging nursing facilities to complete the applicable forms when
                      providing care plan interventions, such as monitoring residents’ moods,
                      behaviors, and drug side effects.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   18
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all of our three recommendations. CMS has recently
                   launched a national initiative to improve behavioral health and dementia care
                   and to reduce the use of antipsychotic drugs in nursing homes by 15 percent by
                   the end of 2012. CMS noted that that the information in this report will be
                   helpful in its efforts to improve the care of all individuals residing in nursing
                   homes, not only those receiving antipsychotic medications.
                   With regard to our first recommendation, CMS plans to strengthen guidance for
                   surveyors in the SOM to improve the detection of noncompliance with Federal
                   requirements for resident assessments and care plans. CMS also recently
                   expanded the sampling strategy for the Quality Indicator Survey to ensure
                   sufficient representation of residents receiving antipsychotic drugs. If resources
                   permit, CMS plans to test a focused review of resident assessments, care plans,
                   and medication use in a sample of nursing facilities.
                   With regard to our second recommendation, CMS plans to clarify guidance in
                   the SOM on which deficiency determinations and enforcement remedies are
                   most appropriate for deficiencies in resident assessments and care plans and to
                   include this clarification in upcoming surveyor training programs. CMS plans
                   to develop—through a partnership with consumer organizations—educational
                   materials to increase consumer awareness of antipsychotic drug use in nursing
                   facilities. CMS also plans to post a new quality indicator on the publicly
                   available Nursing Home Compare Web site regarding the prevalence of
                   antipsychotic drug use among long-term residents with dementia who have not
                   been diagnosed with specific psychotic disorders.
                   With regard to our third recommendation, CMS has a multidisciplinary
                   approach to reduce the unnecessary use of antipsychotic drugs that includes
                   public-private partnerships; research; technical assistance and education (for
                   nursing homes, physicians/prescribers, pharmacists, nurses, and others);
                   consumer engagement; public reporting; and updates to surveyor guidance and
                   training. A technical expert panel recently advised CMS regarding provider
                   training and technical assistance, quality indicators, surveyor training, and
                   improvements to surveyor guidance.
                   The full text of CMS’s comments is provided in Appendix G. We did not make
                   any changes to the report based on CMS’s comments.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   19
APPENDIX A
Changes to the Minimum Data Set, Version 3.0, That May Affect the Assessments of Residents
Receiving Antipsychotic Drugs


Cognitive Assessment:
    The Brief Interview for Mental Status (BIMS) structured test replaces the staff
       assessment for residents who can understand the interview questions and respond.
    Facilities complete the staff assessment for mental status only for residents who cannot
       complete the BIMS.
    The Validated Confusion Assessment Method (CAM) replaces the MDS 2.0 delirium
       items, which were not reliable.

Mood Assessment:
   The Patient Health Questionnaire nine-item depression scale (PHQ-9) resident
     interview replaces staff observations for residents who can report mood symptoms.
   This scale is based on well-established diagnostic criteria for depression.

Behavior Items:
   	 Items regarding hallucinations and psychosis were moved from a list of several other
      behaviors to a subsection about psychosis where definitions for hallucinations and
      delusions were added to the form.
    Language describing physical and verbal behavioral symptoms was revised for
      clarification.
    “Wandering” is now rated separately from the other behavioral symptom groups.

Resident Assessment Protocol (RAP) for psychotropic drug use:
    The RAP is now called the Psychotropic Drug Use Care Area Assessment (CAA).
    Whereas the RAP was triggered by combination triggers in MDS 2.0 (listed in
       Appendix B), the CAA—its successor—is triggered simply by use of an antipsychotic,
       antianxiety, antidepressant, or hypnotic medication administered to the resident in the
       7 days preceding the assessment.




Source: Centers for Medicare & Medicaid Services (CMS), Long-Term Care Facility Resident Assessment Instrument User’s
Manual, version 3.0, September 2010; CMS, Minimum Data Set (MDS), accessed at https://www.cms.gov on May 14, 2011; and
CMS, MDS 3.0: The Why & How (presentation from MDS 3.0 National Training Conference), August 2010, accessed at
https://www.cms.gov on May 11, 2011.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   20
APPENDIX B
Triggers for the Resident Assessment Protocol for Psychotropic Drug Use


[FOR THE RESIDENT ASSESSMENT PROTOCOL (RAP)] TO BE TRIGGERED,
RESIDENT MUST FIRST USE A PSYCHOTROPIC DRUG (antipsychotic, antidepressant,
or antianxiety). If used, go to Resident Assessment Protocol review if one or more of the
following [is] present:*

Potential for drug-related hypotension or                          Potential for drug-related
gait disturbances if:                                              cognitive/behavioral impairment if:
 Repetitive Physical Movement                                      Delirium/Disordered Thinking
 Balance While Sitting                                               o Easily Distracted
 Hypotension                                                         o Periods of Altered Perception or
 Dizziness/Vertigo                                                       Awareness of Surroundings
 Syncope                                                             o Episodes of Disorganized Speech
 Unsteady Gait                                                       o Periods of Restlessness
 Fell in Past 30 Days                                                o Periods of Lethargy
                                                                      o Mental Function Varies Over the
 Fell in Past 31-180 Days
                                                                          Course of the Day
 Hip Fracture
                                                                    Deterioration in Cognitive Status
 Swallowing Problem
                                                                    Deterioration in Communication
Potential for drug-related discomfort if:                           Deterioration in Mood
 Constipation                                                      Deterioration in Behavioral Symptoms
 Fecal Impaction                                                   Depression
 Lung Aspiration                                                   Hallucinations


Source: Centers for Medicare & Medicaid Services (CMS), Long-Term Care Facility Resident Assessment Instrument [RAI]
User’s Manual, version 2.0, December 2002.

*Minimum Data Set 3.0, released October, 2010, now uses Care Area Assessments (CAA) for triggered conditions instead of
RAPs. The only condition to trigger the Psychotropic Drug Use CAA is that the resident received psychotropic drugs in the
7 days prior to the assessment. CMS, Long-Term Care Facility RAI User’s Manual, version 3.0, September 2010.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)          21
         APPENDIX C
         Example of How a Resident Assessment Is Used To Develop a Care Plan Intervention for
         Antipsychotic Drug Use




                                                                    1. Assessment
                                                              •The Mimimum Data Set
                                                               (MDS) notes antipsychotic
                                                               drug use in the last 7 days
                                                               and unsteady gait.
                                                              •These items trigger the
(This is an iterative process: staff should                    Resident Assessment
   evaluate interventions, reassess the                        Protocol (RAP) for
  resident, and modify the care plan as                        psychotropic drug use.
                necessary.)




                             4. Care Plan
                           Implementation                                                                    2. Decisionmaking

                                                                                                        The facility staff note this
                    The care plan lists this 
                                                          in the RAP summary:
                    intervention:
                                                                      "Antipsychotic drug use
                    "Monitor resident for drug 
                                                        may contribute to unsteady
                    side effects and efficacy. 
                                                        gait. Proceed to care
                    Evaluate for gradual dose 
                                                         plan."
                    reduction."





                                                                       3. Care Plan
                                                                       Development

                                                               The care plan lists this 

                                                               problem:

                                                               "The resident is at risk of 

                                                               side effects of

                                                               antipsychotic drug use, 

                                                               especially unsteady gait."





         Source: Office of Inspector General analysis of nursing facility records, 2011.

         Note: MDS 3.0, released October, 2010, now uses Care Area Assessments (CAA) for triggered conditions instead of RAPs. The
         only condition to trigger the Psychotropic Drug Use CAA is that the resident received psychotropic drugs in the 7 days prior to the
         assessment. Centers for Medicare & Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
         Manual, version 3.0, September 2010.




         Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)              22
APPENDIX D
State Certification of Nursing Facilities


General Process

State agencies certify nursing facilities as compliant or noncompliant with Federal
standards for health and safety. This determination is based on a survey conducted by
qualified health professionals that verifies whether and how each standard is met. Surveys
are generally unannounced and must be conducted at a minimum of every 15 months for
each facility. If deficiencies are identified, they are categorized by severity (i.e., effect on
resident outcome) and scope (i.e., number of residents potentially or actually affected), and
the State sends the facility a Statement of Deficiencies. Facilities have 10 days to respond
with a Plan of Correction for each cited deficiency. If an acceptable plan is not submitted
or if a facility does not correct deficiencies, the State and/or the Centers for Medicare
& Medicaid Services (CMS) may impose remedies, such as civil money penalties,
temporary managers, directed plans of correction, in-service training, denial of payment for
new admissions, and State monitoring.
Survey tasks. State surveys generally include: offsite survey preparation, an entrance
conference and onsite preparation, an initial tour of the facility, and a sample selection of
residents. Information for the sampled residents is gathered through activities such as
observations; informal and formal interviews with residents, staff, family, and others; and
record review. Surveyors analyze this information to identify any deficiencies and then
hold an exit conference with the facility.
Deficiency determinations. When a facility is not in substantial compliance with Federal
standards, the facility may have the opportunity to correct deficiencies before remedies are
imposed. This depends on the severity and scope of the deficiencies. Severity levels
should reflect pyschosocial (i.e., mood and behavior) outcomes as well as physical
outcomes. There are four severity levels, ranging from no actual harm with potential for
minimal harm (Level 1) to immediate jeopardy to resident health or safety (Level 4).
Immediate jeopardy requires immediate corrective action because of actual or potential
serious injury, harm, impairment, or death to a resident. When determining scope,
surveyors consider the cause of the deficiency. Scope has three levels: isolated, pattern,
and widespread. If a facility lacks an adequate system to meet a requirement and this
failure has the potential to affect a large number of residents, the deficiency is likely to be
widespread.
Remedy Categories. There are three categories of enforcement remedies (see Table D-1).
Denial of payment for new admissions must be imposed when a facility is not in substantial
compliance within 3 months of being found out of compliance. Denial of payment and
State monitoring must be imposed when a facility provides substandard quality of care as


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   23
determined by three consecutive standard surveys. See Table D-2 for a matrix of
enforcement remedies for deficiencies based on severity and scope.


Table D-1: Remedy Categories

Category 1                                  Category 2                                   Category 3

Directed plan of correction                 Denial of payment for new                    Temporary management
                                            admissions

State monitor; and/or                       Denial of payment for all                    Termination
                                            individuals imposed by CMS;
                                            and/or

Directed in-service training                Civil money penalties:                       Optional:

                                            $50 - $3,000/day                             Civil money penalties

                                            $1,000 - $10,000/instance                    $3,050 - $10,000/day

                                                                                         $1,000 - $10,000/instance

Source: CMS, State Operations Manual, Pub. No. 100-07, ch. 7.




Table D-2: Enforcement Remedies Based on Severity and Scope of Deficiencies
                                                                        Deficiency Scope
 Deficiency                       Remedy
 Severity                         Category             Isolated            Pattern       Widespread


 Actual or potential for          Required                         3                 3                3
 death or serious injury
 (immediate jeopardy)
                                  Optional                       1, 2           1, 2               1, 2


 Actual harm that is not          Required                         2                 2                2
 immediate jeopardy
                                  Optional                         1                 1                1

 Potential for more               Required                         1                 1                2
 than minimal harm
                                  Optional                         2                 2                1

 Potential for minimal
                                                                             Plan of            Plan of
 harm; substantial                Required                      None
                                                                          Correction         Correction
 compliance exists

Source: CMS, State Operations Manual, Pub. No. 100-07, ch. 7.                             


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   24
Resident Assessments and Care Plans*
Surveyors are instructed to evaluate assessments, care plans, and outcomes of care
interventions for sampled residents. Surveyors determine whether the facility has properly
assessed its residents through the completion of the Resident Assessment Instrument (RAI)
and has appropriately developed, implemented, and evaluated care plans. They use
observations, interviews, and record review to conduct a comprehensive review, including
the following:
	 a check of specific items on the Minimum Data Set (MDS) for accurate coding of the
   resident’s condition;
	 a review of the facility’s completion of the RAI process, including use of the Resident
   Assessment Protocols (RAP), evaluation of assessment information not covered by the
   RAPs, identification of risks and causes of resident conditions, completion of the RAP
   summary sheet, and development of a care plan that meets the identified needs of the
   resident;
	 a review of the implementation of the care plan and resident response; and
	 a review of the relationship of the resident’s drug regimen to the resident’s condition,
   including whether the effectiveness of the regimen is being monitored and assessed.
When reviewing the RAIs and care plans, surveyors:
	 review the RAP summary sheet to determine:
    o	 where the assessment documentation is located for triggered RAPs and
    o	 whether the facility used the RAPs and considered necessary information when
       deciding to proceed or not proceed with care plans and
	 review the care plan to identify:
    o	 whether the facility used the RAI to make sound care plan decisions and
    o	 whether the facility implemented the interventions listed in the care plan.
Surveyors use this information to determine whether a resident’s decline or failure to
improve was avoidable or unavoidable. Surveyors also determine whether a reassessment
based on a significant change should have been conducted and whether the absence of a
reassessment contributed to the resident’s decline or lack of improvement. Record reviews
of information, of care plans, of implementation of care plans, and of evaluations of care
enable surveyors to determine whether there has been a decline, an improvement, or
maintenance in identified focus areas.
The State Operations Manual does not provide specific guidance to surveyors regarding
how deficiencies in resident assessments and care plans should be scored and/or when they
might place residents in immediate jeopardy.
Source: CMS, State Operations Manual, Pub. No. 100-07, chs.1 and 7, Appendixes P and Q.

* MDS 3.0, released October, 2010, now uses Care Area Assessments (CAA) for triggered conditions instead of RAPs.
As a result, State surveyors now use CAAs instead of RAPs during their reviews.


Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   25
APPENDIX E
Sample Selection
The sample size for the original study (700) was chosen to accommodate stratification by
resident diagnoses. (For additional information, see Medicare Claims for Atypical
Antipsychotic Drugs in Nursing Homes, OEI-07-08-00150, May 2011). This
stratification scheme was not relevant to the current study. Therefore, we randomly
selected fewer records from the original sample to expedite our review for this study
while allowing for adequate precision when reporting results.
We reviewed a subset of 375 records for this study that were originally collected for the
previous study. The original sample of 700 claims included 59 cases from facilities that
did not respond to our record request, which are not represented in this study. The
original sample also included 40 cases with records that were not submitted timely and
were therefore not submitted for medical review. Twenty-four of those 40 cases were
included in this review but did not contain data from the previous medical record review.
Table E-1 shows how the original sample for the previous study relates to the sample for
this study.
Table E-1: Characteristics of Current Sample Based on
Previous Study


                                 Sample                                              Did Not Receive
 Study                                                Nonrespondents
                                    Size                                             Medical Review


 Previous                            700                               59                          40

 Current                             375                               n/a                         24

Source: Office of Inspector General selection of study sample, 2010.



We conducted analysis to determine whether the errors in this study correlated with the
errors in the previous study. There were no statistically significant correlations between
the two sets of variables. Therefore, our results for this study do not appear to be biased
by the absence of information from those records that did not previously undergo medical
review.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   26
APPENDIX F
Professionals Involved in Resident Assessments and Care Plans

 Table F-1: Professionals Involved in Resident Assessments

                                                                                                                                  
                                              Number                                               Number
    Professionals                                               Percentage                                     Percentage
                                          (Exclusive*)                                        (Inclusive**)


    Psychiatric Physician                               0               0.0%                             0               0.0%

    Geriatric Physician                                 0               0.0%                             0               0.0%

    Psychologist                                        0               0.0%                             1               0.3%

    General Physician                                   0               0.0%                             4               1.1%

    Social Worker                                     15                4.0%                           103           27.5%

    Registered Nurse                                 172              45.9%                            261           69.6%

*The indicated staff member was solely responsible for resident assessments. 
                                                    
**The indicated staff member was responsible for resident assessments as part of a group including one or more staff 

members from other disciplines. 


Source: Office of Inspector General (OIG) analysis of nursing facility resident records, 2011.





 Table F-2: Professionals Involved in Care Plans

                                              Number                                               Number
    Professionals                                               Percentage                                       Percentage
                                          (Exclusive*)                                        (Inclusive**)

    Psychiatric Physician                               0               0.0%                             0                0.0%

    Geriatric Physician                                 0               0.0%                             0                0.0%

    Psychologist                                        0               0.0%                             2                0.5%

    General Physician                                   0               0.0%                            12                3.2%

    Licensed Practical
                                                      13                3.5%                            49               13.1%
    Nurse

    Social Worker                                     13                3.5%                           160               42.7%

    Registered Nurse                                  50              13.3%                            195               52.0%
*The indicated staff member was solely responsible for resident assessments. 

**The indicated staff member was responsible for resident assessments as part of a group including one or more staff 

members from other disciplines. 


Source: OIG analysis of nursing facility resident records, 2011. 





Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)                   27
APPENDIX G
Agency Comments




  J1.'/
    .•
   ", 	
          J-
          ".~" "' 	
             . .''''.     DEf'ARTMEr-;r Or HEAtnl & IIUMAN SERVICES
                                                     " _'''-.'_,.m,.."..., ,, _ ". .. ,_ _

    """"" 	                                                                                                   A dmffli~ttlltl1"
                                                                                                              W.W1iflOlt)l).OC 2«/.01

                                                                      MAY 302012
                        TO: 	           Damel It. Levin:,on 

                                        Insp~l(If ( iclt¢t'ill 

                                                                    /S/
                        FROM: 	         fvP.u~!1l1t..1.Itlllt't 

                                        Acting .        in~,.,'tol 



                        Sl!fUE<'''r: 	 OffiCt' "(~)«i!:lr <kn<:r41 (010) Dmlt Report Nuntng facility "~t~!<l'l'IenlS and
                                       (",3!C ?tlll1$ (If Ri:SU!elll'l Rrteiviftg Atypical Antip;lIychoti(; Dmhls
                                        {Off·v?·08.00 I S I I


                        Thank you fUT (hi: ofJp,(JrtW¥ily \Q review the subje<:t 010 dr4!\~pOrt un nUTlling fadlhy
                        asse·~fI'lent' and care pltlM k t rC$idcnt$ receiving utypi.cnl antip$ydwlic drugs. The Centers for
                        \ .tedi.:are &. !<.ledienid Service~ (eMS} appre<;t1ltes the OIG's valuable contri bullnos tnward
                        improving tilt' !lve, (If nursin); home midenls. eMS has taken action lhr\)\lgh Il fUU)vMi
                        inilwliv¢ h} Improve behavioral henlthand dementia care and 10 reduce tile ~ nf antipsycholic
                        drugs 'm nursi ng hamcs by 15 perH'!ol by Ihe end of Cillt:ndar )'car 2(H2. St,me detail! {.fC}.!S'
                        initiative arc included in the NCOlll'trendatJon sections below.. \VellppM.:iatc fhAl the
                        inforlm'lI iiln in thill 010 dral\ t'C'pOf1 will be helpful in our ~rrtIW u> lmpruw rhe ~e vf aU
                        indh'idunls residing In !lu.n;ing hottleS. not only those on amipsychoti;; nwd;iC\1ti.t'!I;!l,




                        To en~u~ that nUflufliI l'4!n l!tles i{lke lIICtiom dcsiSl1i!d tt) provide high-quahty c<vc to elderly
                        Tes1d..'1lts in mming t'aeilitit'$. "' It ret::ommend that C~l'" Improve tilt' dc\{':Clwr\ ofnNleOmpliltJ'1(;(:
                        with f¢tkra! re'ltl .iR'm~'nl$ for tt""ident usS<."'Ssments and care plans.



                        eMS    ~"oncur'l. eMS plmu to 51 reng,lhcn the Slate OperatifHtf Mannal dit¢t1ioos fur survt.'yOT'S to
                        fcvic\'\' cKlI:umentation of rClIident and family involvement in tlsscsstnent ll!ld can: planning.. t iS
                        well as as!o(",~sing wmplltlnc¢ " ith regulations through intervieWl; with f'eSidenu and families.
                        pl<ij1h<r. we recently imph.1lllcnted the new Minimum Data Sel (MDs) .l .G $)'stem, as (I system
                        which inCQtpOl'llleS hnpruvcruefllll that were O(ot present. illlllC MOS 2.U{lInd hence not lIvai\abk:
                        for the OlG study). 1» p.mticul:Sf. MOS ) .0 rcquiresfa(;;iUtil.7$ lOinlcJ'Vlew n:sidenl$ and staff
                        rather than sotcly lool.:inl,l lit pUl'er records. eMS believes tltat im}'lro'l<i:w, ~ of
                        noncompliam:ce durin.g the survi:Y prOCC$li mould also rely on bath lheme.dlcal ~cord and Sill
                        and ~sident or farolly intefv~ , New SUTve}Xlt 1,?uiliancc in devel()pt1"W:'tU \\1U Cll1phasilC ~.
                        rrlm~iplm.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08·00151)                        28
Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   29
Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   30
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City
                   regional office, and Brian T. Whitley, Deputy Regional Inspector General.
                   Julie Dusold Culbertson served as the team leader for this study. Other
                   principal Office of Evaluation and Inspections staff from the Kansas City
                   regional office who conducted the study include Rae Hutchison and
                   Dennis Tharp. Central office staff who provided support include
                   Kevin Farber, Sandy Khoury, and Christine Moritz.




Nursing Facility Assessments and Care Plans for Residents Receiving Atypical Antipsychotic Drugs (OEI-07-08-00151)   31
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
